Executive Report
Return
to the USDOJ/OIG Home Page
U.S. Marshals ServiceCourt Security Officer Program
Report No. 00-21August 29, 2000Office of the Inspector General
EXECUTIVE SUMMARY
Court Security Officers are contract security guards procured by the United States Marshals Service (USMS) to provide security at courthouses and federal buildings housing court operations.  The origin of the Court Security Officer (CSO) Program can be traced back to the Report of the Attorney General's Task Force on Court Security issued in March 1982.  Recommendations in that report resulted in an agreement between the Chief Justice and the Attorney General that the USMS should assume primary responsibility and authority for providing security for the federal judiciary.
The overwhelming majority of U.S. marshals and chief judges surveyed indicated that they were satisfied with the CSO Program.  At the same time, however, there was a strong undercurrent of concern among USMS employees and members of the judiciary regarding the management of the program, and the efficacy of using contract employees for judicial security.
The CSO Program is a highly centralized operation.  Procurement of the CSO contracts, as well as management of the program is largely a headquarters function.  The districts deal directly with contractors in some respects, such as bill-paying and time-keeping.  But most decision-making matters, e.g., hiring, firing, and disciplinary actions must be funneled through a handful of contracting officers and program managers at USMS headquarters, who manage the program for the districts.  As the program has grown over the years (over 1,400 percent since 1983), the centralized manner in which the program is run has given rise to a great deal of frustration on the part of those involved.  These concerns have brought into question whether a program of this size and breadth (3,100 CSOs dispersed across 94 USMS districts) can be effectively managed in a highly centralized environment.
Also, though not a serious problem at this time, the potential for CSO strikes has become a concern among members of both the USMS and the judiciary.  With unionization has come the threat, already realized, of CSO strikes.  And as the services provided by contract CSOs continue to expand, so too will the potential impact on security operations should a disruption in that service occur as a result of union or contract disputes.
In addition, the CSO contracts have become something of a lightning rod for legal challenges.  Protests over the contracting process have been on the rise since 1997, culminating in a barrage of protests related to the most recent round of contract awards in early 1999.  Some USMS officials believe these protests are a by-product of the growth in the program and the millions of dollars now at stake in the large circuit-wide contracts.  Although the USMS has successfully defended against most of the protests filed, it appears the trend is such that the legal challenges associated with these large circuit-wide contracts are becoming a cost of doing business.
Because of the conflicting nature of the evidence obtained, we are reluctant to recommend a singular course of action.  Instead, we suggest several options available to the USMS:  (1) continue utilizing the current CSO contracts, (2) eliminate the contract operation by converting contract guards to federal employees, or (3) effect a partial conversion by stratifying the current guard force into two separate units, one contract, and the other federal.  The federal force would be used for courtroom security, while building security would remain a contract operation.
We also noted several areas of concern regarding the CSO Program at the operational level.  Currently, the Administrative Office of the United States Courts (AOUSC) reimburses the USMS for program-related administrative costs incurred only at the headquarters level.  However, we estimated that the USMS incurs about $2.8 million annually in administrative costs at the district level, for which it is not reimbursed.  Consequently, the USMS is, in effect, subsidizing the AOUSC-funded program in the amount of these unrecognized costs.
Additionally, there was a concern among a number of U.S. marshals that CSOs do not receive adequate training for the duties required of them.  Marshals identified needed subject areas of training ranging from bomb detection and anti-terrorist programs, to cardiopulmonary resuscitation (CPR) and people skills.  Currently, there is no provision in the CSO contracts for in-service training.
Finally, we noted some internal control issues, which may have an impact on security operations.  (1) Unannounced tests of security screening posts were being conducted on a quarterly basis, as required by USMS policy, at only 5 of the 16 district offices we reviewed.  Unannounced tests at the other 11 districts were conducted either infrequently, or in some cases not at all.  (2) A number of CSOs' security clearances and medical certifications could not be verified because documentation was not consistently maintained at the district level.
Our audit objectives, scope, and methodology appear in the Appendix.  The details of our work are contained in the Findings and Recommendations section of the report.